OFFICE OF INSPECTOR GENERAL
               Audit Report
Fiscal Year 2009 Evaluation of Information Security
         at the Railroad Retirement Board


                 Report No. 10-01
                November 12, 2009




   RAILROAD RETIREMENT BOARD
                                       TABLE OF CONTENTS


Introduction
 Background ................................................................................................................. 1
 Objectives.................................................................................................................... 2
 Scope .......................................................................................................................... 2
 Methodology ................................................................................................................ 2


Results of Evaluation
 Certification and Accreditation ..................................................................................... 4
 Access Control ............................................................................................................ 6
 Risk Assessment ......................................................................................................... 7
 Policies and Procedures .............................................................................................. 8
 Security Plans.............................................................................................................. 9
 Training...................................................................................................................... 10
 Testing and Evaluation of Agency Information Systems............................................ 11
 Testing and Evaluation of Contractor Information Systems ....................................... 12
 Remedial Action Process........................................................................................... 14
 Incident Handling and Reporting ............................................................................... 15
 Continuity of Operations ............................................................................................ 16
 Inventory of Systems ................................................................................................. 16


Appendices
 Appendix I Information Security Awareness Training ............................................... 18
 Appendix II Bureau of Information Services Management’s Response .................... 20




                                                               i
                                        INTRODUCTION

This report presents the results of the Office of Inspector General's (OIG) evaluation of
information security at the Railroad Retirement Board (RRB).

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs
provide income protection during old age and in the event of disability, death, temporary
unemployment or sickness. The RRB paid over $10.1 billion in benefits during fiscal
year (FY) 2008. The RRB is headquartered in Chicago, Illinois and has 53 Field Offices
across the nation.

Throughout much of FY 2009, the RRB's information system environment consisted of
six major application systems and two general support systems, each of which has
been designated as a moderate impact system in accordance with standards and
guidance promulgated by the National Institute of Standards and Technology (NIST).
The major application systems correspond to the RRB's critical operational activities,
including RRA benefit payments, RUIA benefit payments, maintenance of railroad
employees' service and compensation records, administration of Medicare entitlement,
financial management, and the RRB's financial interchange with the Social Security
Administration. The two general support systems comprise the mainframe computer
and the local area network/personal computer (LAN/PC) systems. In September 2009,
the RRB combined four of their six major applications into one major application, benefit
and payment operations. 1

This evaluation was conducted pursuant to Title III of the E-Government Act of 2002,
the Federal Information Security Management Act of 2002 (FISMA), which requires
annual agency program reviews, Inspector General security evaluations, an agency
report to the Office of Management and Budget (OMB), and an OMB report to
Congress. FISMA also establishes minimum requirements for the management of
information security in nine areas:

    ¾   Risk Assessment
    ¾   Policies and Procedures
    ¾   Security Plans
    ¾   Training
    ¾   Testing and Evaluation
    ¾   Remedial Action Process
    ¾   Incident Handling and Reporting
    ¾   Continuity of Operations
    ¾   Inventory of Systems


1
 The four major applications combined into benefit and payment operations are RRA benefit payments,
RUIA benefit payments, maintenance of railroad employees' service and compensation records, and
administration of Medicare entitlement.

                                                 1
Information security means protecting information and information systems from
unauthorized access, use, disclosure, disruption, modification or destruction in order to
provide confidentiality, integrity, and availability. An information system is a "discrete
set of information resources organized for the collection, processing, maintenance, use,
sharing, dissemination, or disposition of information. Information resources include
information and related resources, such as personnel, equipment, funds and information
technology." 2

The OIG previously evaluated information security at the RRB from FYs 2000 through
2008, and reported weaknesses throughout the RRB's information security program. 3
The OIG also cited the agency with significant deficiencies in access controls in the
mainframe and LAN environments, as well as delays in meeting FISMA requirements
for both risk assessments and periodic testing and evaluation.

The Bureau of Information Services (BIS), under the direction of the Chief Information
Officer, is responsible for the RRB's information security and privacy programs. FISMA
requires agencies to report any significant deficiency as a material weakness under the
Federal Managers' Financial Integrity Act. 4

Objectives

The objectives of this evaluation were to fulfill the requirements of FISMA which include:

    1. evaluating the RRB's information security program, including the effectiveness of
       the information security policies, procedures, and practices of a representative
       subset of agency information systems; and

    2. assessing the RRB's compliance with FISMA requirements and related
       information security policies, procedures, standards, and guidelines.

Scope

The scope of this evaluation was information security at the RRB during FY 2009. This
included the status of audit recommendations for corrective action which resulted from
prior audits and evaluations performed from FY 2000 through FY 2009.

Methodology

To meet the first objective, the OIG audited the general and application controls over
the financial management major application system using the methodology contained in
the Government Accountability Office's (GAO) Federal Information System Controls


2
  Minimum Security Requirements for Federal Information and Information Systems, NIST Federal
Information Processing Standards Publication 200 (March 2006).
3
  OIG audit reports are maintained on the RRB website at http://www.rrb.gov/oig/library.asp.
4
  A significant deficiency is a weakness in an agency's overall information systems security program or
management control structure, or within one or more information systems that significantly restricts the
capability of the agency to carry out its mission or compromises the security of its information, information
systems, personnel, or other resources, operations, or assets.

                                                     2
Audit Manual (FISCAM). 5, 6 We also performed a system-level assessment of security
controls over the Medicare major application. 7 Additionally, we considered tests of
security controls over access and the segregation of duties in conjunction with OIG
audits of the agency's FY 2008 financial statement preparation and the accounts
payable subsystem of the financial management major application. 8

To meet the second objective, we considered the results of prior audits and evaluations
of information security from FY 2000 through FY 2009, including the status of related
recommendations for corrective action. We also obtained and reviewed documentation
supporting the RRB's performance in meeting FISMA requirements and interviewed
responsible agency management and staff.

The primary criteria for this evaluation included:

    •   FISMA,
    •   NIST standards and guidance,
    •   OMB Circular A-130, 9
    •   OMB memoranda,
    •   GAO FISCAM, and
    •   GAO Standards for Internal Control in the Federal Government. 10

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Fieldwork was conducted at RRB headquarters in Chicago, Illinois,
from May 2009 through October 2009.




5
  Federal Information System Controls Audit Manual, GAO/AIMD-12.19.6 (January 1999), and revision
GAO-09-232G (February 2009).
6
  Audit of the General and Application Controls in the Financial Management Major Application System,
OIG Report No. 09-05, September 30, 2009.
7
  Audit of the Railroad Retirement Board's Medicare Major Application System, OIG Report No. 09-06,
September 30, 2009.
8
  Fiscal Year 2008 Financial Statement Audit Letter to Management, OIG Report No. 09-02, March 24,
2009, and Audit of Internal Control Over Accounts Payable, OIG Report No. 09-03, March 31, 2009.
9
  Management of Federal Information Resources, OMB Circular A-130 (November 2000).
10
   Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (November 1999).

                                                   3
                                   RESULTS OF EVALUATION

The RRB has not yet achieved a fully effective information security program. The RRB
has implemented all nine program elements required by FISMA; but the security
program, as a whole, is undermined by significant deficiencies in access control and the
internal control over the certification and accreditation review process. Additionally,
some previously identified lesser deficiencies in the implemented FISMA elements
continue to exist.

During FY 2009, the agency has taken action to correct previously reported significant
deficiencies in risk assessments and periodic testing and evaluation, and completed
their first NIST compliant certification and accreditation program. However, an
ineffective review process for contractor deliverables has resulted in a significant
deficiency in internal control over the certification and accreditation process.

During FY 2009, we also observed that although the agency has corrected the
significant deficiencies in risk assessments and periodic testing and evaluation, some
weaknesses in those areas continue to exist. Additionally, we observed other areas
where security program improvements should be made, such as the implementation of
the RRB's agency-wide configuration policy.

The details of our findings and recommendations for corrective action follow. Agency
management has agreed to take corrective actions for all recommendations. The full
text of management's response is included in this report as Appendix II.

Certification and Accreditation

The RRB's certification and accreditation process is ineffective and represents a
significant deficiency in the RRB's internal control structure.

OMB Circular A-130, Appendix III requires that agency management authorize systems
for processing based on the formal technical evaluation of the management, operation,
and technical controls. This process is also known as certification and accreditation,
and it should occur at least every three years or when there has been a significant
change to the system. Additionally, continuous monitoring should be performed on a
regular basis. This includes the assessment of a subset of security controls, and the
reporting and documentation of the results of the assessment.

GAO has defined internal control as "the plans, methods, and procedures used to meet
missions, goals, and objectives and, in doing so, supports performance-based
management. Internal control also serves as the first line of defense in safeguarding
assets and preventing and detecting errors and fraud. In short, internal control, which is
synonymous with management control, helps government program managers achieve
desired results through effective stewardship of public resources." 11




11
     Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (November 1999).

                                                   4
The OIG previously reported that the RRB did not have a NIST compliant certification
and accreditation program. 12 The agency later contracted with technical specialists to
assist in the certification and accreditation of the two general support systems and six
major applications.

In our FY 2008 FISMA report, we identified a weakness in BIS's process for reviewing
contractor deliverables received for the completed LAN/PC general support system and
recommended that BIS review and update the certification and accreditation
documentation. 13 The RRB has not been effective in correcting this weakness.

In FY 2009, the RRB's contractor completed certification and accreditation of the
remaining two major applications, consolidated the documentation for four major
applications into one, and conducted continuous monitoring of the agency's LAN/PC,
mainframe, and the newly consolidated benefit and payment operations major
application. We reviewed the certification and accreditation documentation completed
during FYs 2008 and 2009, as well as the continuous monitoring documentation, and
observed that these documents contained many of the same deficiencies as previously
reported.

Our evaluation of the certification and accreditation and continuous monitoring
documentation disclosed that the RRB's review process for contractor deliverables is
ineffective in:

     •   identifying incomplete and inaccurate information in the description of system
         environment and interconnections;
     •   ensuring that all of the baseline controls have been considered during testing;
     •   ensuring that all identified weaknesses have been incorporated in the Plan of
         Action and Milestones (POAM) for remedial action; and
     •   identifying when a designated system owner employee is no longer employed at
         the RRB.

We found that the RRB's policy for the certification and accreditation of agency systems
does not include consideration of contractor support and the necessary controls that
must be in place to ensure adequate contractor deliverables. The RRB's certification
and accreditation process does not provide senior agency officials with complete,
accurate, and trustworthy information on the security status of the general support
systems. Therefore, the senior agency officials have not been provided an adequate
factual basis for rendering their security accreditation decisions.




12
  OIG Report No. 04-11, September 30, 2004, Recommendation 9.
13
  OIG Report No. 08-05, September 30, 2008, Recommendations 2 and 7. At the time of our review,
only the LAN/PC general support system had been certified and accredited.

                                                5
Recommendation

We recommend that the Bureau of Information Services:

       1. implement controls to ensure an effective certification and accreditation review
          process that includes complete, accurate, and trustworthy documentation,
          whether prepared by agency employees or contractor personnel.

Management's Response

The Bureau of Information Services has agreed with this recommendation and has
advised that they initiated a rigorous review of the FY 2009 mainframe and LAN/PC
documentation to resolve any inaccurate or missing information.


Access Control

The design and implementation of access controls in the RRB's general support and
application systems is not adequate to meet minimum standards of least privilege.

OMB Circular A-130, Appendix III, defines least privilege as the practice of restricting a
user's access or type of access to the minimum necessary to perform his or her job.

In our FY 2001 evaluation of information security, we cited the agency with a significant
deficiency in access control and made several recommendations. Since that time,
additional recommendations have been made. 14 Although the agency has implemented
corrective action for many of the recommendations made since FY 2001, our ongoing
evaluations show that the agency continues to have difficulty in this area.

Our FY 2009 assessments of information security in the financial management and
Medicare major applications disclosed weaknesses in access control including:

       •   user privileges that were not commensurate with job functions;
       •   inadequate segregation of duties over transaction level entries and approvals;
       •   user account expirations; and
       •   password configuration settings.

Excessive rights and privileges weaken the overall information security program.


14
     OIG Report No. 02-04, February 5, 2002, Recommendations 13, 20, and 21.
     OIG Report No. 04-08, September 7, 2004, Recommendation 1.
     DSD LAN Report, June 7, 2005, Recommendation 7.
     DSD WEB Report, June 7, 2005, Recommendation 16.
     OIG Report No. 05-08, July 18, 2005, Recommendation 10.
     OIG Report No. 07-08, September 27, 2007, Recommendation 1.
     OIG Report No. 09-02, March 24, 2009, Recommendations 6, 7, and 8.
     OIG Report No. 09-03, March 31, 2009, Recommendations 1 and 2.
     OIG Report No. 09-05, September 30, 2009, Recommendations 1, 2, 3, 4, 6, 7, 8, 11, 12, 13, 14, 15, 19, and 20.
     OIG Report No. 09-06, September 30, 2009, Recommendations 3, 4, 5, and 6.

                                                      6
Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.


Risk Assessment

The RRB's contractor has prepared risk assessments as required by FISMA; however,
more work is needed to ensure all risk assessments are completed in accordance with
NIST guidance.

FISMA requires Federal agencies to periodically assess the risk and magnitude of harm
that could result from unauthorized access, use, disclosure, disruption, modification, or
destruction of information or information systems. NIST SP 800-30, Risk Management
Guide for Information Technology Systems, presents a risk assessment methodology
agencies can use when performing their periodic assessments. Organizations use risk
assessments to determine the potential threats to information and information systems
and to ensure that the greatest risks have been identified and addressed.

In FY 2005, we cited the RRB with a significant deficiency because the agency had
made little progress in implementing a formal risk assessment process in accordance
with NIST guidance. We previously recommended that the agency complete formal,
NIST compliant, risk assessments of the major application and general support
systems. 15 In FY 2008, we reviewed the risk assessment prepared for the LAN/PC
general support system and found that although the contractor had completed the risk
assessment in accordance with NIST guidance, some weaknesses in the final product
existed. We recommended that the LAN/PC general support system's risk assessment
be reviewed and updated to accurately reflect the current RRB system environment and
control analysis. 16

Our review of the risk assessments prepared by the RRB's contractor in FY 2008 and
2009 disclosed weaknesses similar to those previously identified in the contractor
prepared risk assessment for the LAN/PC general support system. Weaknesses
include incomplete and inaccurate information in the description of the system
environment, as well as missing or not fully documented baseline controls. We attribute
these weaknesses to an ineffective review process for contractor deliverables
performed by agency personnel. As a result, the effectiveness of the certification and
accreditation process as a whole is undermined.

Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.



15
     OIG Report No. 05-08, July 18, 2005, Recommendation 4.
16
     OIG Report No. 08-05, September 30, 2008, Recommendation 2.

                                                  7
Policies and Procedures

The RRB has developed information security policies and procedures as required by
FISMA, but continues to need improvement in implementing risk-based policies and
procedures that are comprehensive and effective in all areas of the agency's information
security and privacy programs.

FISMA requires that agencies include risk-based policies and procedures that reduce
risks to an acceptable level and ensure that information security (which includes the
confidentiality, integrity, and availability of information) is addressed throughout the life
cycle of each information system. The policies and procedures should also ensure
compliance with minimally acceptable system configuration requirements.

In prior reviews, we identified many areas in which the development of policies and
procedures would strengthen the RRB's information security and privacy programs, and
made recommendations for overall improvement. Many of these recommendations are
pending corrective action. 17

During FY 2009, the RRB completed the development of an agency-wide configuration
policy for Windows 2003 servers. Our review of the implementation of the agency-wide
configuration policy showed that the agency has not yet fully implemented the policy for
all Windows 2003 servers, and their attempts at implementation have not been
efficiently managed or successful.

We were advised that the agency-wide policy settings have been made locally on newly
deployed Windows 2003 servers in calendar year 2008, and that BIS did not keep
records of which servers had been configured with the policy. As of May 2009, the
agency had an inventory of 39 Windows 2003 servers deployed prior to 2008, and 7
Windows 2003 servers deployed in 2008. We reviewed the configuration settings for a
Windows 2003 server deployed in 2008, and found that 42% of the settings do not
match the agency-wide policy. We also observed that no Organizational Unit Group
Policy Object had been created to implement the policy agency-wide.

We were advised that the RRB does not intend to develop an agency-wide configuration
policy for Windows 2000 servers because they intend to gradually remove these servers
from the production environment. 18 However, the RRB has not developed a formal plan
to remove the Windows 2000 servers from the production environment. Such a plan
should include timeframes and resources required to complete this phase-out action.


17
   OIG Report No. 07-02, March 9, 2007, Recommendations 2, 3, and 4.
   OIG Memorandum No. 07-02m, March 9, 2007, Recommendation 1.
   OIG Report No. 07-04, March 28, 2007, Recommendations 1 and 2.
   OIG Report No. 07-06, July 30, 2007, Recommendations 5, 6, 7, 13, 14, and 16.
   OIG Report No. 07-07, July 30, 2007, Recommendations 2 and 4.
   OIG Report No. 07-09, September 27, 2007, Recommendations 1, 2, 3, 4, 6, 7, 8, 9, 10, 11, 13, 14, 15, 17, and 18.
   OIG Report No. 09-03, March 31, 2009, Recommendations 7, 12, and 13.
   OIG Report No. 09-05, September 30, 2009, Recommendations 9, 10, 16, 17, and 18.
   OIG Report No. 09-06, September 30, 2009, Recommendations 7, 8, and 9.
18
   As of May 2009, the agency had an inventory of 73 Windows 2000 servers.

                                                   8
During FY 2009, the RRB implemented the Federal Desktop Core Configuration
(FDCC) settings for workstations with Windows XP operating systems. In this process,
they documented the deviations necessary to allow the FDCC settings to work properly
in the RRB LAN/PC general support system. However, our review of the documented
deviations showed that some of the reasons for deviation were outdated, inaccurate, or
incomplete. We also observed other, unidentified, deviations between the FDCC policy
established by NIST and the FDCC settings implemented by BIS. As a result, the RRB
cannot ensure that their implemented FDCC settings are in full compliance with NIST
requirements.

Recommendations

We recommend that the Bureau of Information Services:

    2. develop and implement a plan to efficiently apply the Windows 2003
       agency-wide configuration policy to all Windows 2003 servers.

    3. develop a formal plan to remove the Windows 2000 servers from the production
       environment.

    4. review the implemented FDCC settings against the NIST requirements, and
       document the reason for any deviations.

Management's Response

The Bureau of Information Services has agreed to take equivalent corrective action for
recommendation two, and has agreed with recommendations three and four. They will:

   •   evaluate each Windows 2003 server with respect to the server configuration
       policy, and make the necessary changes or document those items that are
       deemed to risky to perform;

   •   develop a project plan for decommissioning the Windows 2000 servers; and

   •   provide adequate documentation to explain the reasons for any deviations with
       FDCC requirements.


Security Plans

The RRB's contractor has prepared system security plans as required by FISMA;
however, more work is needed to ensure all plans are completed in accordance with
NIST guidance.

FISMA requires that agencies maintain subordinate plans for providing adequate
information security for networks, facilities, and systems or groups of information
systems. System security plans document this type of information.


                                            9
In FY 2008, we reviewed the LAN/PC system security plan completed by the RRB’s
contractor in August 2008, and found that the plan was not completed in accordance
with NIST guidance. We noted that the system security plan contained inaccurate or
missing information, and recommended that the plan be reviewed and updated to
address the inaccurate or missing information. 19

In FY 2009, we reviewed the RRB's remaining system security plans and the updated
LAN/PC system security plan. Our review of the system security plans disclosed
weaknesses similar to those previously identified in FY 2008. As previously discussed
in the certification and accreditation section of this report, no changes had been made
to the LAN/PC or mainframe system security plans to address the inaccurate or missing
information prepared by the RRB’s contractor.

We attribute these weaknesses to an ineffective review process for contractor
deliverables performed by agency personnel. As a result, the effectiveness of the
certification and accreditation process as a whole is undermined.

Recommendation

We recommend that the Bureau of Information Services:

       5. review and update the mainframe system security plan to address the inaccurate
          or missing information.

Management's Response

The Bureau of Information Services has agreed with this recommendation and has
advised that they initiated a rigorous review of the FY 2009 mainframe and LAN/PC
documentation to resolve any inaccurate or missing information.


Training

The RRB has met the FISMA requirement for information security awareness training
for employees and contractors, although some previously identified weaknesses in the
RRB's training programs for information security or privacy are pending corrective
action. 20

FISMA requires agencies to provide security awareness training to employees,
contractors, and other users of information systems. In addition to security awareness
training, agencies are required to provide specialized training to personnel with
significant security responsibilities.


19
     OIG Report No. 08-05, September 30, 2008, Recommendation 7.
20
     OIG Report No. 06-09, August 24, 2006, Recommendation 1.
     OIG Report No. 07-06, July 30, 2007, Recommendations 3 and 8.
     OIG Report No. 07-09, September 27, 2007, Recommendation 12.
     OIG Report No. 08-05, September 30, 2008, Recommendation 5.

                                                  10
Our review of the RRB's security awareness training results for FY 2009 showed that
the agency was generally compliant with the FISMA provision to provide training to all
agency employees and contractors. We found that all employees and contractors took
the required general information security awareness training, and that employees with
significant security responsibilities took some form of the specialized training assigned
by the senior agency information security officer. However, we found that two
employees with significant security responsibilities did not take the full extent of
specialized training because their immediate supervisor overrode the instructions given
by the senior agency information security officer. 21

Although some form of specialized training took place, which meets the requirements of
FISMA, agency management should be aware of the risk associated with management
overrides of the internal control environment. Such practices may result in the agency's
inability to meet FISMA requirements in the future. As FISMA requirements were met
this year, we offer no additional recommendations for corrective action.

Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.


Testing and Evaluation of Agency Information Systems

The RRB has implemented a program for periodic testing and evaluation of agency
information systems as required by FISMA; however, more work is needed for a fully
compliant testing and evaluation process.

FISMA requires periodic testing and evaluation of the effectiveness of information
security policies, procedures, and practices performed with a frequency depending on
risk, but no less than annually. The periodic testing and evaluation must include testing
of management, operational and technical controls for every system identified in the
agency's inventory of systems, including contractor operations. NIST SP 800-53A,
Guide for Assessing the Security Controls in Federal Information Systems, provides
procedures for assessing the effectiveness of security controls employed in Federal
information systems and directly supports the certification and accreditation process.
NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
Information Systems, requires the information system owner to select an appropriate
subset of controls for periodic assessment, also referred to as the continuous
monitoring phase of certification and accreditation. The controls selected should be
approved by the authorizing official and the senior agency information security officer.

The OIG previously reported that RRB tests did not meet FISMA requirements because
they did not include all major application systems and were not comprehensive with
respect to all three categories of controls: management, operational, and technical. 22

21
     See Appendix I for details of our testing methodology.
22
     OIG Report No. 02-04, February 5, 2002, Recommendation 3.
     OIG Report No. 03-02, December 27, 2002, Recommendations 1, 2, 3, and 4.

                                                  11
In FY 2005, we cited the RRB with a significant deficiency in its testing and evaluation
program because the agency had made little progress in implementing a compliant
periodic testing and evaluation process. In FY 2007, we reported that agency efforts to
perform NIST compliant tests of certain common controls were not fully effective
because testing did not extend to RRB offices outside of headquarters. 23

Our review of the certification and accreditation documentation prepared by the
agency's contractor in FY 2008 and 2009 disclosed that the risk assessments and
POAM had not always been updated to reflect the security test and evaluation results,
as required by NIST. We were advised that the specific controls selected for testing
during the FY 2009 continuous monitoring were agreed to by the system owners and
the contractor prior to testing, but observed the Security Test and Evaluation Plan did
not specifically identify which individual controls would be tested, and conflicting
information exists in the documentation supporting the test scope and results.
Additionally, the contractor reported obtaining current test information through an
interview with an employee who had left the RRB's employment prior to the contract
award.

We attribute these weaknesses to an ineffective agency review process for contractor
prepared test and evaluation documentation. Inadequate testing and evaluation of
agency information systems weakens the security program as a whole.

Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.

Management's Response

RRB management has agreed with our finding, but has offered comments on this area
of review. See Appendix II for the full text of management's comments.


Testing and Evaluation of Contractor Information Systems

The RRB has implemented a policy to perform and document information security site
assessments, but they have not developed a comprehensive plan to accomplish testing
and evaluation of the contractor information systems that contain RRB data.

FISMA requires agencies to provide "information security protections … of (i)
information collected or maintained by or on behalf of an agency; and (ii) information
systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency …." Additionally, each agency shall "develop,
document, and implement an agencywide information security program … to provide
information security for the information and information systems that support the
operations and assets of the agency, including those provided or managed by another
agency, contractor, or other source …."
23
     OIG Report No. 07-08, September 27, 2007, Recommendation 2.

                                                 12
In FY 2008, we reported that the RRB did not have a comprehensive plan for testing
and evaluation of contractor operations and recommended that BIS develop such a
plan. 24 BIS responded that they would seek legal counsel to verify which agency
contracts should be considered for certification and accreditation as information
systems in compliance with FISMA requirements.

We reviewed the legal opinion prepared by the RRB's General Counsel, and observed
that BIS was advised to have the senior agency information security officer review the
contracts, obtain input from staff and other key participants, and make the necessary
classifications regarding contractor information systems. 25

When a contractor system is considered an independent information system, a
certification and accreditation schedule should be established. If the system is
considered a subsystem functioning as part of an overall general support system or
major application, no independent certification and accreditation is necessary.
However, per NIST requirements, all subsystems classified under an overall general
support system or major application must fall under the same management authority.
Management control includes budgetary or operational authority for day-to-day
operations and maintenance of the information systems. 26

The RRB has contracted with non-Federal service providers, and other Federal
agencies. We have observed that many of the RRB's contractor systems do not fall
under RRB management authority for day-to-day operations. For example, the RRB
has contracted for web services with a telecommunications contractor and
administrative actions such as disabling user accounts must be requested through the
contractor’s work management system. The RRB does not maintain full administrative
control over these web services and the contract specifically states that the RRB
request maintenance activities through the contractor’s work management system.

In September 2009, we were advised by the senior agency information security officer
that no work had been completed in response to the legal opinion, and that he did not
intend to report any contractor systems in his FY 2009 FISMA report. Inadequate
testing and evaluation of contractor information systems weakens the security program
as a whole.

Recommendation

We recommend that the senior agency information security officer:

     6. perform the reviews as instructed by the RRB's General Counsel to determine
        which RRB contractors are independent information systems.


24
   OIG Report No. 08-05, September 30, 2008, Recommendation 3.
25
   Classification of Contractor Systems Interacting with RRB's Information Systems, Legal Opinion
L-2009-11, June 15, 2009, page 5.
26
   Guide for the Security Certification and Accreditation of Federal Information Systems, NIST SP 800-37,
Chapter 2.3, May 2004.

                                                   13
Management's Response

The Bureau of Information Services has agreed with this recommendation and the
senior agency information security officer will review all contractors to determine if they
are independent information systems.


Remedial Action Process

The RRB’s remedial action process continues to be ineffective in identifying and
prioritizing all weaknesses in the agency’s information security and privacy programs.

FISMA requires Federal agencies to maintain a process for planning, implementing,
evaluating, and documenting remedial action to address any deficiencies in the
information security policies, procedures, and practices of the agency. OMB requires
agencies to develop a formal POAM to identify vulnerabilities in information security and
privacy, and to track the progress of corrective action. Each year, OMB requires the
OIG to assess the agency’s POAM as part of the FISMA reporting process.

The OIG first criticized the RRB’s POAM in FY 2003 as ineffective in articulating
weaknesses and planning corrective actions. In FY 2005, we again reported that the
existing POAM was not comprehensive with respect to identifying weaknesses, and that
it provided inadequate prioritization of agency plans and efforts to correct the
weaknesses found. In FY 2007, we reported that the agency was not preparing action
plans for their privacy-related weaknesses and those weaknesses were not being
incorporated into the existing POAM. We made recommendations to address these
issues. 27

During FY 2009, we reviewed the agency POAMs created and/or updated by the
contractor during certification and accreditation or continuous monitoring activities and
observed that all of the POAMs did not reflect the full results of the security tests and
evaluations. As separate POAMs for each general support system and major
application have been prepared by the contractor, the agency took steps to consolidate
the contractor POAMs into one agency-wide POAM for those systems. 28 However, our
review of the agency-wide POAM showed that the weaknesses have not been
prioritized to ensure they would be addressed in a timely manner, milestone tasks and
dates have not been developed, and the resources needed for remediation have not
been identified. We also observed that system owners were not provided the user
privileges to access and update the consolidated agency-wide POAM.




27
   OIG Report No. 05-11, September 28, 2005, Recommendation 3.
   OIG Report No. 07-06, July 30, 2007, Recommendation 15.
28
   The agency maintains open audit recommendations from OIG reviews separately from the contractor
prepared POAMs. During FY 2009, the agency worked to address many of the most significant open
audit recommendations as identified by the OIG, but much work remains to be completed overall. For
example, at the time our fieldwork for this FISMA review began in May 2009, the agency had over 100
open audit recommendations dealing with information security and privacy.

                                                 14
As a result, agency efforts to date have been insufficient in managing POAM
deficiencies, and it is not being used as the management tool OMB intended for
identifying vulnerabilities and monitoring agency corrective actions.

Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.

Management's Response

RRB management has agreed with our finding, but has offered comments on this area
of review. See Appendix II for the full text of management's comments.


Incident Handling and Reporting

The RRB’s incident handling and reporting program is generally effective in ensuring the
confidentiality, integrity, and availability of the agency’s information and information
technology, although some previously identified weaknesses are pending corrective
action.

FISMA mandates that Federal agencies develop, document, and implement procedures
for detecting, reporting, and responding to security incidents as part of its agency-wide
information security program. Federal Incident Reporting Guidelines specify categories
of incidents and timeframes in which Federal agencies are to report incidents to
US-CERT. US-CERT uses these reports to analyze the information provided by all
agencies to identify trends and precursors of attacks. BIS also reports security
incidents to agency managers each month in the BIS Monthly Administrative Report to
keep them apprised of agency actions.

In FY 2006, the OIG performed a detailed review of the RRB’s incident handling and
reporting program and found that the agency’s overall efforts were sufficient to meet the
requirements established by FISMA. We did, however, recommend some areas where
program management could be improved, including controls to ensure the accuracy and
completeness of internal and external security incident reports. 29

Our review of the RRB’s incident handling and reporting performed during FY 2009 did
not disclose any additional weaknesses.

Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.




29
     OIG Report No. 06-09, August 24, 2006, Recommendations 1, 2, 3, 4, 7, 8, 9, and 10.

                                                    15
Management's Response

RRB management has offered comments on this area of review. However, they quoted
a statement that did not appear in the draft report released for comment. The matter
cited was resolved during the briefing process. See Appendix II for the full text of
management's comments.


Continuity of Operations

The RRB has developed a continuity of operations plan that meets the requirements of
FISMA, although some previously identified weaknesses are pending corrective
action. 30

FISMA requires Federal agencies to implement plans and procedures to ensure
continuity of operations for information systems that support the operations and assets
of the agency.

The RRB provides for semi-annual off-site recovery testing of the two general support
systems, and the mainframe databases of its major application systems. Generally, the
RRB also tests some of the major application batch processes, and LAN connectivity.
As a result, the agency’s disaster recovery plan provides assurance that most of the
agency’s major information technology functions would be operational in the event of a
disaster.

Our review performed in FY 2009 did not disclose any additional weaknesses.

Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.


Inventory of Systems

The RRB has generally complied with FISMA requirements to identify major application
systems, but some improvement is still needed with respect to component application
systems.

FISMA requires that each agency develop, maintain, and annually update their
inventory of major information systems. This inventory is to include an identification of
the interfaces between each system and all other systems or networks, including those
not operated by, or under the control of, the agency.

Our review showed that while the agency has made progress in updating their inventory
of component applications and server locations, work remains to be completed to
identify the component system’s responsible official when security administration is
30
     OIG Report No. 07-08, September 27, 2007, Recommendations 5 and 6.

                                                 16
decentralized. 31 Additionally, we previously recommended that the RRB perform a
physical inventory of information technology hardware and to update the agency’s
official fixed asset inventory system and implement controls to ensure adequate
protection of the RRB network. 32 Those recommendations are currently pending
corrective action.

Our review performed in FY 2009 did not disclose any additional weaknesses.

Recommendation

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.




31
     OIG Report No. 05-08, July 18, 2005, Recommendation 3.
32
     OIG Report No. 07-08, September 27, 2007, Recommendation 7.
     OIG Report No. 08-05, September 30, 2008, Recommendation 8.

                                                 17
                                                                               Appendix I

                         Sampling Methodology and Results
                      Information Security Awareness Training

This appendix presents the methodology and results of our judgmental sampling test of
information security awareness training records.

Sample Objective

Our objective was to determine whether employees whom the agency reported to have
taken information security awareness training received general awareness training, and
employees with significant security responsibilities received specialized training.
Additionally, we determined whether RRB managers maintained adequate records of
the training taken by their employees.

Sample Universe

We selected our sample from the population of 945 RRB employees reported by the
agency as having taken security awareness training in FY 2009.

Sample Review Methodology

We used judgmental sampling to select a sample size of 40 employees, 18 of which
required the general awareness training and some form of specialized training, and 22
of which required only the general awareness training. Employees were selected from
a wide variety of agency departments, including those located at headquarters and in
the field offices. In our judgment, this sample size was sufficient to determine whether
the training provided was appropriate to job function, and fully documented.

For each RRB employee in our sample, we obtained and reviewed the
employee-completed training certification indicating the extent of training taken.
Interviews were held as necessary.

An error was defined as:
    • an employee who did not read the basic section of the information security
       awareness pamphlet;
    • an employee with significant security responsibilities who did not read the
       additional sections of the information security awareness pamphlet; or
    • a manager who could not produce the required documentation to support the
       training taken by their respective employees.

Results of Review

We found that all 40 employees took the required basic security awareness training, as
reported by the agency. We also found that the 18 employees with significant security
responsibilities took some form of specialized training, although 2 did not take the full
scope of specialized training at the direction of their immediate supervisor. We also

                                            18
found that agency managers maintained adequate documentation to support the
training taken by their employees.

Conclusion

The RRB's training records are accurate to support the overall conclusion that the RRB
has provided information security awareness training. As some form of specialized
training took place for employees with significant security responsibilities, which meets
the requirements of FISMA, we offer no recommendations for corrective action for the
two employees who did not take the full scope of specialized training.




                                           19
                                                                                   Appendix II
                                                                                               FORM G..11S. (1-12)
                 (JNITED STAT":S G()VERNMENT
                                                                           RAILROAD RETII(EMIt;N'I' B()ARIJ
                 MEMORANDUM



                                                                          November 10, 2009


TO	              Letty B. Jay,
                 Assistant Inspector General for Audit

FROM	            Terri S. Morgan,          ._        J      A fin/I
                 Chief Information Officer {Yj)1J;G        LJ· V/10f!}{lt'V-'
SUBJECT:	 Draft Report - Fiscal Year 2009 Evaluation of Information Security
          At the Railroad Retirement Board


The RRB appreciates the opportunity to comment on the Office of Inspector General's (OIG) draft
report entitled, "Fiscal Year 2009 Evaluation of Information Security At the Railroad Retirement
Board." In this draft report, while the OIG acknowledges that the "RRB has implemented aU nine
elemen~s reqUired by FISMA" for the management of information securityt they still assert at the
&eRRB has not yet achieved a fully effective information security program" because of "significant
deficiencies in access control ana the internal control over the certification and accreditation
process." The OIG states, "The RRB's contractor has prepar~d system security plans as
required by FISMA; however, more work is needed to ensure all plans are completed in
accordance with NtST guidance."

Recommendation #1
We recommend that the Bureau of Information Services implement controls to ensure an effective
certification and accreditation process that includes complete, accurate and trustworthy
documentatio.n, whether prepared by agency employees or contractor personnel.

Recommendation #5
We recommend that the Bureau of Information Services review and update the mainframe
system security plan to address the inaccurate or missing information.

Response
BIS concurs with the recommendation regarding documentation but disagrees with the
statements regarding the effectiveness 01 the process.

The RRB believes that we have fully documented that agency systems are robust and exhibit
security commensurate with the risk and magnitude of the harm resulting from the loss, misuse,
or unautHorized access to or modification of information. This includes assuring that systems ~nd­
applications used by the agency operate effectively and provide appropriate confidentialfty,
integrity, and availability, using cost-effective management, personnel, operational, and technical
controls. The NIST prescribed certification and accreditation process was con~ucted at the RRB
and in 2009, the Post-Accreditation phase was initiated. As part of the NIST Risk Management
Framework process we will review and update all System Security Plan d10cuments every year.
                    l

The LAN and Mainframe general support systems will undergo another certification and            .
accreditation and security control monitoring will be performed on all major applications in
FY2010. The certification documentation for all systems will become more complete with each
iteration of this process.

The RRB does not dispute that we should have performed more careful documentation reviews.
Nevertheless, we maintain that the certification and accreditation process produced

                                                20
                                                                                   Appendix II



 documentation that fairly and adequately described the risk to agency operations and assets and
 allowed all Designated Accrediting Authorities to make an informed assessment with respect as
 to whether security controls met security reqUirements. Nonetheless, the Bureau of Information
 Services has initiated a rigorous review of the 2009 Mainframe and LAN documentation to
 resolve any inaccurate or missing information. We will completed this review and provide
 updated documents before November 25, 2009.


 Background for Recommendation #2
 In the evaluation paper the OIG notes, "We reviewed the configuration settings for a Windows
 2003 server deployed in 2008, and found that 42% of the settings do not match the agency-wide
 policy." Thus, the OIG reconimends that "the Bureau of Information Services develop and
 implement a plan to efficiently apply the Windows 2003 agency-wide configuration policy to all
 Windows 2003 servers" and also "develop a formal plan to remove the Windows 2000 servers
 from the prodlrlction environment."

 Recommendation #2
 We recommend that the Bureau of Information Services develop and implement a plan to
 efficiently apply the Windows 2003 agency-wide configuration policy to all Windows 2003 servers.

 Response
 BIS disagrees with the recommendation but agrees that certain actions must be taken to evaluate
 the risks of applying the configuration policy to servers already in production.

 When the RRBproduced a final Server Configuration Policy in 2009, it was stated that the policy
 would be implemented on all new servers provisioned from that date forward. Changing
 configuration settings on servers that are already used in production may have negative
 ramifications on the server. Making configuration setting changes to such· servers may adversely
 affect performance or even disable the applications on the device.

  Each 2003 server will need to be handled discretely to ascertain the impact of making
, configuration changes. The RRB's plan is to list all 2003 servers, evaluating each server with
  respect to the 2003 Server configuration pplicy. We will·meet with application business owners
  and discuss the risks to server configuration changes. If it is acceptable, BIS will make changes
  that are agreed upon and document those items that are deemed too risky to perform. This
  methodology will be repeated with each Win 2003 server. This project will commence in J,anuary
  2010 and is anticipated to be completed in December 2010.

Recommendation #3

We recommend that the Bureau of Information Services develop a formal plan to remove the

Windows 2000 servers form the production envirQnment.


Response

BIS agrees with this recommendation.


Windows 2000 servers are ,not significant security risks as long as they are properly maintained

a,nd supported~ Nevertheless, we do intend to replace Windows 2000 machines as funding and

other resources become avaUable.


The plan will commence with a Project Plan Charter for decommissioning Win 2000 servers that
will be developed by March 2010. BIS will initiate a kickoff meeting with ADG, Programs, etc. to
define the scope of project and create a work-breakdown structure. As funds are allocated, the
software and hardware needed will be procured and a schedule will be created that identifies
impacted appHcations and their order of migration. Engin~ring will create a Windows 2003 or
2008 infrastructure with development, test, and production platforms and install the hardware and
software. Applications will be tested and migrated into the new production environment.

                                                 21
;   I:.   '
                                                                                                  Appendix II



               Background for Recommendation #4

               The OIG agrees that "during FY2009, the RRB implemented the Federal Desktop Core

               Configuration (FOCG) settings for workstations with Windows XP operating systems. In this

               process, they documented the deviations necessary to allow the FDCC settings to work properly

               in the RRB LAN/PC general support system. However, our review of the documented deviations

               showed that some of the re8sQns for deviation were outdated, inaccurate, or incomplete. We

               also' observed other, unidentified, deviations between FDCC policy established by NIST and the

               FDCC settings implemented by BIS. As a result, the RRB cannot ensure that their implemented

               FOCC settings are in full compliance with NIST requirements."


               Recommendation #4

               We recommend that the Bureau of Information Services review the implemented FOCC settings

               against the NIST requirements, and document the reason for any deviations.


               Response.

               BIS agrees with this recommendation; however the RRB maintains that the agency is in fV"

               compliance with FDCC requirements. We will improve and provide adequate documentation to

               explain reasons for any deviations by December 31, 2009.


               Background for Recommendation #6                                                ,

               The OIG attests that "The RRB has implemented a policy to perform and document information

               security site assessments, but they have not developed a comprehensive plan to accomplish

               testing and evaluation of all the RRB's contractor information systems....For example, the RRB

               has contracted for web services with a telecommunications contractor, and administrative actions

               such as disabling user accounts mtlst be requested through the contractor's work management

               system. The RRB does not maintain full administrative control over these web services, and the

               contract specifically states that the RRB request maintenance activities through the contractor's

               work management system."


               Recommendation #6

               We recommend that the senior agency information security officer perform the reviews as

               instructed by the RRB;s General Counsel to determine which RRB contractors are independent

               information systems.


               Response

               SIS agrees with this recommendation. The seni()r agency information security officer will review

               all contractors to determine if they are independent information systems. The contractor reviews

               will be completed by October 2010.


                  PiS response to comments in the ,audit report that did not result in recommendations:
                  Testing and Evaluatlo'n Process                                 (
               .' The OIG states, "The RRB has implemented a program for periodic testing and evaluation of
                  agency information systems as required by FISMA; however, more work is needed for a fUlly
                  compliant testing and evaluation process... We attribute these weaknesses to an ineffective
                  agency review process for contractor prepared test and evaluation documentation." The RR~
              . concurs that it has an effective program for periodic testing and evaluation of agency information
                  systems as required by FISMA and that any prOblems are documentation issues and are not
                  security related.

               P~an of Action and Milestones (POAM)
               The OIG states, "The RR'B's remedial action process continues to be ineffective in identifying and
               prioritiZing all weaknesses in the agency's information security, and privacy programs." They
               state, "Our review of the agency-wide POAM showed that the Y1eaknesses have not been
               prioritized to ehsure they would be addressed in ,a timely manner, milestone tasks and dates have
               not been developed, and the resources needed for remediation tlave natbaen identified," The
               RRB concurs with this preliminary analysis of the POAM that was under development in the

                                                                22
                                                                                  Appendix II




SharePoint environment. The 01<3 staff saw a previous developmental version of the POAM that
has already been revised and reformatted. The agency-wide' POAM continues to be a work in
progress on SharePoint.

InCldefttH'anet:ling,:and Response
The OI(SstcatEtS,."The RRS":s incident handling and reporting program is generally effective in
ensuring the confidentiality., integrity, and availability of the agency's information and in
ir')formatiQn tectlnology, but some improvem~nt in reporting is needed....Our review of the RRB's
incident:handling and rep~rting performed during FY 2009 showed that the RRB did not
consistently report aU security in~idents each month in the SIS Monthly Administrative Report,
including three' month$.in,which no security incidents had been reported."

FISMA,O:MB Circl.llar A~{130 (Appendix III), NIST SP 800-53, NIST SP 800-61, and the Federal
Incident Reporting'Gu'idelines define the requirements and guidance for federal agency incident
handling and response programs. FISI\JIA and NISTguidance require that federal agencies report
security incidents to US-CERT within specified time'frames. FISMA and NIST guidance also
require federal agencies to determine which incidents must be reported internallY,when they
mustbe report~d and to whom.

The RRB-C'ERT submitted all monthly US-CERT Administrative Reports to US-CERT in FY 2009.
In accordance with RRB incide"t handling and response procedures, the RRB-CERT also
submitted aU monthly RRB-CERT' Administrative Reports to the Chief Security Officer and to the
Chief Information Officer. BIS is not required to inclu.de the RRB-CERT Administrative Report
Within the BIS Monthly Administrative Report. As the RRB-CERT properly submitted all monthly
reports to the appropriate e~ernal organizations and internal agency officials, the RRB finds this
criticism to be erroneous.




Cc:
Patricia Henaghan
Robert Laberry
Robert Piech




                                                   23
